Memorandum No. D-2011-RAM-001           November 4, 2010




    American Recovery and Reinvestment Act of 2009 -
      Constructing a Child Development Center and
       Repairing Building 422 - Fort Hood, Texas
Additional Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/recovery/index.html or contact the Secondary
Reports Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing by phone (703) 604-9142 (DSN 664-9142), by fax (703) 604-8932, or by mail:

                      ODIG-AUD (ATTN: Audit Suggestions)
                      Department of Defense Inspector General
                      400 Army Navy Drive (Room 801)
                      Arlington, VA 22202-4704




Acronyms and Abbreviations
CDC                           Child Development Center
DPW                           Directorate of Public Works
FAD                           Funding Authorization Document
FAR                           Federal Acquisition Regulation
FBO                           Federal Business Opportunities
FPDS                          Federal Procurement Data System
FSRM                          Facilities Sustainment, Restoration, and Modernization
MILCON                        Military Construction Program
OMB                           Office of Management and Budget
USACE                         U.S. Army Corps of Engineers
                                      INSPECTOR GENERAL
                                     DEPARTMENT OF DEFENSE
                                       400 ARMY NAVY DRIVE
                                  ARLINGTON, VIRGINIA 22202-4704




                                                                               November 4, 2010

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE (COMPTROLLER)!
                 CHIEF FINANCIAL OFFICER
               AUDITOR GENERAL, DEPARTMENT OF THE ARMY

SUBJECT: American Recovery and Reinvestment Act of2009-Constructing a Child
         Development Center and Repairing Building 422-Fort Hood, Texas (Memorandum
         No. D-2011-RAM-00l)


This memorandum provides results from our audit of selected American Recovery and
Reinvestment Act projects at Fort Hood, Texas. The audit included an analysis of support
provided by the U.S Army Corps of Engineers-Fort Worth District and the Fort Hood
Directorates of Public Works and Contracting. We determined that U.S. Army Corps of
Engineers-Fort Worth District and Fort Hood personnel properly planned, justified, and
contracted two American Recovery Act projects.

We will continue to review DOD's progress and issue subsequent reports and memoranda that
will discuss our evaluation of DOD's implementation of the American Recovery and
Reinvestment Act. We are making no recommendations and do not require a written response.
Therefore, we are publishing this memorandum in final form.

We appreciate the courtesies extended to the staff. Please direct questions to me at (703) 604-
9201 (DSN 664-9201).                                                        ,

                                         ~t8 _V~A'\../                            <...------


                                             Richard B. Jolliffe
                                             Assistant Inspector General
                                             Acquisition and Contract Management
>> This blank page represents the back side of the transmittal memorandum. <<
Memorandum No. D-2011-RAM-001 (Project No. D2009-D000AE-0268.003)            November 4, 2010



               Results in Brief: American Recovery and
               Reinvestment Act of 2009−Constructing a Child
               Development Center and Repairing Building 422–
               Fort Hood, Texas


What We Did                                       What We Recommend 

Our objective was to review the planning,         This report contains no recommendations.
funding, contracting, and initial execution of
two American Recovery and Reinvestment Act        Management Comments
of 2009 (Recovery Act) projects at Fort Hood,     We coordinated with the Installation
Texas, to determine whether the efforts of the    Management Command on a discussion draft of
Army complied with Recovery Act                   this report.
requirements, Office of Management and
Budget guidance, the Federal Acquisition          Figure 1. Beginning Phase of Work for the
Regulation, and DOD implementing guidance.        Child Development Center at Fort Hood
We reviewed:
   a $12.7 million Recovery Act-funded
      Military Construction project to design
      and construct a child development center
      and
   an $8.1 million Facilities Sustainment,
      Restoration, and Modernization project
      to repair building 422 to provide
      consolidated office space for the
      Directorate of Information Management.
                                                  Source: U.S. Army Corps of Engineers
What We Found
                                                  Figure 2. Exterior of Building 422 at Fort
Fort Hood and U.S. Army Corps of Engineers
                                                  Hood
personnel properly planned, funded, and began
initial execution of Recovery Act projects for
constructing a child development center and
repairing building 422 for use by the
Department of Information Management. Fort
Hood and U.S. Army Corps Engineers
personnel also properly solicited and
competitively awarded two fixed-price
contracts. In addition, the contracts contained
the clauses required by the Federal Acquisition
Regulation for contract actions funded through
the Recovery Act.                                 Source: Site Visit Photo
>> This blank page represents the back side of the Results in Brief page. <<
Table of Contents

Introduction       	                                                              1


      Audit Objectives                                                            1

      Recovery Act Background                                                     1

      Fort Hood Operations                                                        3

      Review of Internal Controls at Fort Hood, USACE Fort Worth District, and    

       USACE Support Center                                                       4


Proper Planning, Funding, and Execution of Recovery Act Projects to       

Construct a Child Development Center and Repair Building 422                      5


      Results of Reviewing the MILCON Project                                     5

        Project Appropriately Planned                                             5

        Project Properly Funded                                                   6

        Project Correctly Executed                                                7

        Project Adequately Tracked and Reported                                   7

        Cost and Schedule Status Not Yet Available                                8


      Results of Reviewing the FSRM Project                                       8

        Project Appropriately Planned                                             8

        Project Properly Funded                                                   9

        Project Correctly Executed                                                9

        Project Adequately Tracked and Reported                                  10 

        Cost and Schedule Status Not Yet Available                               10 


Appendices

      A. 	Scope and Methodology                                                  11 

             Prior Audit Coverage                                                12 

      B. Recovery Act Criteria and Guidance 	                                    13

Introduction
Audit Objectives
The primary objective of the audit was to determine whether DOD and its Components
were planning and implementing the American Recovery and Reinvestment Act of 2009
(Recovery Act) by meeting the requirements in the Recovery Act, Office of Management
and Budget (OMB) Memorandum M-09-10, “Initial Implementing Guidance for the
American Recovery and Reinvestment Act of 2009,” February 18, 2009, and subsequent
related guidance. For this audit, we reviewed the planning, funding, contracting, and the
initial execution of Recovery Act projects at Fort Hood that included military
construction (MILCON) of a child development center (CDC), valued at $10.9 million.
We also reviewed the Facilities Sustainment, Restoration, and Modernization (FSRM) of
building 422, valued at $7.6 million. In addition, we determined whether the efforts of
the Army complied with Recovery Act requirements, OMB guidance, the Federal
Acquisition Regulation (FAR), and DOD implementing guidance. See Appendix A for a
discussion of our scope and methodology.

Recovery Act Background
The President signed the Recovery Act into law on February 17, 2009. It is an
unprecedented effort to jump-start the economy and create or save jobs.

       The purposes of this Act include the following:
              (1) To preserve and create jobs and promote economic recovery.
              (2) To assist those most impacted by the recession.
              (3) To provide investments needed to increase economic efficiency by
                  spurring technological advances in science and health.
              (4) To invest	 in transportation, environmental protection, and other
                  infrastructure that will provide long-term economic benefits.
              (5) To stabilize State and local government budgets, in order to minimize
                  and avoid reductions in essential services and counterproductive state
                  and local tax increases
                  .        .         .         .       .        .       .
       . . . the heads of Federal departments and agencies shall manage and expend the
       funds made available in this Act so as to achieve the purposes specified . . .
       including commencing expenditures and activities as quickly as possible
       consistent with prudent management.

Recovery Act Requirements
The Recovery Act and implementing OMB guidance require projects to be monitored and
reviewed. We grouped these requirements into the following four phases: (1) planning,
(2) funding, (3) execution, and (4) tracking and reporting. The Recovery Act requires
that projects be properly planned to ensure the appropriate use of funds. Review of the
funding phase is to ensure the funds were distributed in a prompt, fair, and reasonable
manner. Review of the project execution phase is to ensure that contracts awarded with
Recovery Act funds were transparent, competed, and contain specific FAR clauses; that
Recovery Act funds were used for authorized purposes; and that instances of fraud,
waste, error, and abuse were mitigated. Review of the execution phase also ensures that

                                                   1

program goals were achieved, including specific program outcomes and improved results
on broader economic indicators; that projects funded avoided unnecessary delays and
cost overruns; and that contractors or recipients of funds reported results. Review of the
tracking and reporting phase ensures that the recipients’ use of funds was transparent to
the public and that benefits of the funds were clearly, accurately, and timely reported.

Recovery Act Contracting Requirements
The Recovery Act establishes transparency and accountability requirements. Federal
Acquisition Circular 2005-32, March 31, 2009, provides policies and procedures for the
Government-wide implementation of the Recovery Act and guidance on special contract
provisions. Federal Acquisition Circular 2005-32 amended the FAR and provided
interim rules that made FAR solicitation provisions and contract clauses immediately
available for inclusion in contracts for Recovery Act work.

The specific FAR Recovery Act requirements were for:

      buying American construction material,
      protecting contractor whistleblowers,
      publicizing contract actions,
      reporting, and
      giving the Government Accountability Office and agency Inspectors General
       access to contracting records.

Federal Government organizations meet requirements for Recovery Act contract actions
by posting information on the Federal Business Opportunities (FBO) and Federal
Procurement Data System (FPDS) Web sites. FAR Subpart 5.7, “Publicizing
Requirements Under the American Recovery and Reinvestment Act of 2009,” directs
contracting officers to use the Government-wide FBO Web site
(http://www.fedbizopps.gov) to:

      identify actions as funded by the Recovery Act,
      post pre-award notices for orders exceeding $25,000,
      describe supplies in a clear narrative to the general public, and
      provide the rationale for awarding any contracting actions that were not both
       fixed-price and competitive.

FBO is the Federal Government’s central source of Federal procurement opportunities.
FBO is a Web-based portal that allows agency officials to post Federal procurement
opportunities and contractors to search and review those opportunities. Agencies also
post contract award notices on FBO. In addition, to provide transparency, FBO has a
separate section identifying Recovery Act opportunities and awards.

FPDS is the Federal Government’s central source of procurement information.
Contracting officers enter information, to include the Treasury Account Symbol, in the



                                            2

FPDS for all Recovery Act contract actions. The Treasury Account Symbol enables
FPDS to provide transparency by generating and posting a report containing all Recovery
Act contract actions.

OMB Recovery Act Guidance
Criteria for planning and implementing the Recovery Act continue to change as OMB
issues additional guidance, and DOD and the Components issue their implementation
guidance. OMB has issued ten memoranda and one bulletin to address the
implementation of the Recovery Act. See Appendix B for Recovery Act criteria and
guidance.

DOD Recovery Act Program Plans
Under the Recovery Act, Congress appropriated approximately $12 billion to DOD for
the following programs: Energy Conservation Investment, FSRM, Homeowners
Assistance, MILCON, Near Term Energy-Efficient Technologies, and U.S. Army Corps
of Engineers (USACE) Civil Works.

The values of the six Recovery Act programs are shown in the following table.
          DOD Agency-Wide and Program-Specific Recovery Act Programs
                              Program                          Amount
                                                             (in millions)
      Energy Conservation Investment                               $120
      Facilities Sustainment, Restoration, and Modernization      4,2601
      Homeowners Assistance                                         555
      Military Construction                                       2,185
      Near Term Energy-Efficient Technologies                       300
      U.S. Army Corps of Engineers Civil Works                    4,600
         Total                                                $12,0201

The Recovery Act divides the approximately $12 billion among 33 DOD and USACE
line items of appropriations.

Fort Hood Operations
Fort Hood is an installation under the West Region of the U.S. Army Installation
Management Command. Its mission is to train its assigned units to act as a mobilization
station for Army Reserve and National Guard units. Fort Hood also serves a variety of
tenant organizations and provides support services for a community of more than

1
  On August 10, 2010, Title III "Rescissions" of Public Law 111-226 rescinded $260.5 million of funds
from DOD Operations and Maintenance Accounts supporting the Recovery Act. This effectively reduced
the DOD Recovery Act Facilities Sustainment, Restoration, and Modernization amounts to approximately
$4 billion and total DOD Agency-wide and Program-Specific Recovery Act program funding to
approximately $11.76 billion.

                                                  3

297,000 soldiers, family members, and retirees. In addition to the 1st Cavalry Division
and 1st Army Division West, Fort Hood is also the residence of Headquarters Command
III Corps. Additionally, Fort Hood supports current and future Joint, Army, and
combined force mission requirements through the Army’s Battle Command Training
Center, a combat aviation training area, and the U.S. Army’s Operational Test Command,
which conducts operational testing of Army equipment, doctrine, force design, and
training. The Fort Hood Directorate of Public Works (DPW) and the Directorate of
Contracting support Fort Hood by providing project planning and contracting services for
FSRM projects.

USACE Fort Worth District
The USACE Fort Worth District and the USACE Support Center Huntsville, Alabama,
support Fort Hood by providing project management and contracting services for
MILCON projects. These services include awarding contracts for Recovery Act-funded
projects and assigning project managers to oversee the contracted work. To assist in
providing these services, the USACE Fort Worth District maintains an office at Fort
Hood.

Fort Hood Recovery Act Projects
Fort Hood had a total of 44 Recovery Act-funded projects, with a total estimated value of
$100.2 million. We selected two projects, valued at $20.8 million, for review through the
use of predictive analytic techniques (See Appendix A). The two projects included
constructing a CDC ($12.7 million) and repairing building 422 ($8.1 million).

Review of Internal Controls at Fort Hood, USACE Fort
Worth District, and USACE Support Center
Fort Hood, USACE Fort Worth District, and USACE Support Center internal controls
over the planning, funding, and initial execution of the selected Fort Hood Recovery Act
projects were effective as they applied to the audit objectives.




                                            4

Proper Planning, Funding, and Execution of
Recovery Act Projects to Construct a Child
Development Center and Repair Building 422
DPW and the Directorate of Contracting personnel at Fort Hood and USACE Fort Worth
District personnel properly planned, funded, and performed initial project execution of
Recovery Act-funded projects for constructing a CDC (the MILCON project) and
repairing building 422 (the FSRM project) for use by the Department of Information
Management. As part of initial project execution, the Army also properly solicited and
competitively awarded two fixed-price contracts for the MILCON and FSRM projects.
The contract solicitations were transparently reported, and the contracts contained the
clauses required by the FAR for contract actions funded through the Recovery Act.

Results of Reviewing the MILCON Project
DPW Fort Hood and USACE Fort Worth District personnel appropriately planned and
properly funded a Recovery Act project to construct a CDC. Additionally, USACE
personnel correctly performed initial project execution (competitively awarding a
contract with required FAR clauses) and adequately tracked and reported on the project.

Project Appropriately Planned
DPW Fort Hood personnel appropriately planned the construction of the CDC.
DD Form1391, “Military Construction Project Data,” and supporting documentation,
including an economic analysis and an analysis of alternatives for the MILCON,
contained project planning specifications. DOD Regulation 7000.14-R, “DOD Financial
Management Regulation,” volume 2B, chapter 6, requires DOD Components to use the
DD Form 1391 to support the request for authorization of both new construction and
urgent, unforeseen projects using emergency or contingency authorization. Two specific
sections of the form (Items 10 and 11) require details of the requirement for the proposed
project and how the current mission would benefit from the proposed project. Item 10,
“Description of Proposed Construction,” requires clear and concise descriptions of the
proposed construction including a complete outline of all principal features of the work.
Item 11, “Requirement,” requires a detailed, informative statement on why the project is
needed, how and under what conditions the requirement is presently being met, and the
manner and extent to which mission accomplishment would be affected if the project was
not approved.

DD Form 1391 for the MILCON project included an economic analysis by DPW Fort
Hood. The economic analysis explained the project objective as providing CDC services
for 338 children from 6 weeks to 5 years of age. The economic analysis showed that the
MILCON project met the project objective better than alternatives, including renovating
existing facilities, leasing other facilities, or doing a combination of renovation and new
construction. In addition to the economic analysis, the content of the DD Form 1391


                                             5

included the Unified Facilities Criteria for planning heating, ventilation, and air-
conditioning; telecommunications; fire protection; antiterrorism; and multiple design
features.2

Project Properly Funded
Fort Hood and USACE Fort Worth District personnel properly distributed Recovery Act
funding for the MILCON project. The Army had originally estimated the MILCON
project to cost $12.7 million in the May 15, 2009, DoD Military Construction Plan. On
April 9, 2009, the Assistant Secretary of the Army, Financial Management and
Comptroller, issued a Funding Authorization Document (FAD) for $12.7 million of
MILCON Recovery Act funding to Headquarters USACE to fund the project. On
September 1, 2009, the USACE Support Center Huntsville, Alabama, awarded a contract
task order for $10.9 million for building the CDC. On September 16, 2009, Headquarters
USACE issued a FAD for $11.7 million of Army MILCON Recovery Act funding to the
USACE Fort Worth District to fund the $10.9 million contract task order plus $800,000
for contingencies, supervision, and administrative costs for USACE to manage the
project.

Under provisions of the DoD Comptroller Memorandum, “Project Cost Variations
During Execution of American Recovery and Reinvestment Act Expenditure Plans for
Infrastructure Investments,” May 7, 2009, the Army can use the actual bid savings (after
project completion) to offset cost growth on other Recovery Act-funded construction of
CDCs. As of January 20, 2010, Headquarters USACE recognized bid savings of
$11.7 million for the MILCON of seven Recovery Act-funded CDC projects. The Army
combined the bid savings on this project with bid savings on other CDC projects and
nominated a project for constructing an additional CDC. On April 29, 2010, the Army,
through the DOD Comptroller, notified Congress of its intent to fund the $9 million
construction of a CDC at Fort Polk, Louisiana, using combined bid savings from Fort
Hood and the six other Recovery Act-funded CDC projects.3 Because the Recovery Act
provided the Army with $80 million specifically for the construction of CDCs, the Army
cannot use bid savings on the construction of CDCs to supplement or nominate other
types of Recovery Act-funded projects.



2
  Under Secretary of Defense (Acquisition, Technology, and Logistics) Memorandum, “Department of
Defense Unified Facilities Criteria,” May 29, 2002, requires the Military Departments to use Unified
Facilities Criteria for planning, designing, constructing, sustaining, restoring, and modernizing of facilities,
regardless of funding source.
3
  The DOD Office of Inspector General is assessing the Army’s overall planning of Recovery Act-funded
MILCON of CDCs (Project No. D2009-D000AE-0268.000, “Recovery Act-Funded Military Construction
of Army Child Development Centers”). In performing this assessment, we considered factors beyond
individual DD Form 1391 justifications, including whether the Army most equitably apportioned Recovery
Act-funded child care capacity to base locations where the need was greatest. We used data projections
through FY 2015 to compare the child care needs of Fort Hood to the needs of six other Army installations
receiving Recovery Act funding to build a CDC. These installations include Fort Bragg, NC; Hunter Army
Airfield, GA; Fort Drum, NY; Fort Belvoir, VA; Fort Carson, CO; and Fort Eustis, VA. Army officials
stated that any adjustments to the size of the seven awarded CDC contracts would lead to delays in project
execution and increased project costs, including incurring penalties to cancel the existing contracts.

                                                       6

Project Correctly Executed
DPW Fort Hood and USACE Fort Worth District personnel correctly performed initial
project execution of the MILCON project. Initial project execution included awarding a
contract that was competitively solicited with full transparency, and that contained
clauses required by the FAR for Recovery Act contract actions.

Contract Was Competitively and Transparently Solicited and Awarded
USACE Fort Worth District personnel competed the MILCON project among small-
business contractors and received two bids. On September 1, 2009, the USACE
contracting office awarded the winning bidder a fixed-price task order for $10.9 million
on multiple-award task order contract, W912DY-08-D-0029. On September 8, 2009,
contracting personnel posted the award on the FBO Web site, and on October 6, 2009, the
contractor received a notice to proceed from the contracting officer.

USACE Fort Worth District personnel transparently reported the contracting process for
the MILCON project. The original presolicitation notice for multiple-award task order
contract W912DY-08-D-0029, posted on November 30, 2007, to the FBO Web site, pre-
dated enactment of the Recovery Act and, therefore, did not identify the presolicitation as
a Recovery Act action. However, on May 27, 2009, USACE Fort Worth District
personnel posted a special notice to the FBO Web site regarding the solicitation for the
CDC task order that identified the project as a Recovery Act action and clearly explained
the nature of the work. Additionally, USACE posted the task order and award notice for
the project on the FBO Web site, further identifying the project as a Recovery Act action.

Contract Included Required Federal Acquisition Regulation Clauses
USACE Fort Worth District personnel included the clauses required by the FAR in the
task order under which they were executing the MILCON project. The multiple-award
task order contract that contained the MILCON project task order included clauses
required by the FAR for actions funded through the Recovery Act. Specifically, the
contract contained:

      FAR 52.203-15, “Whistleblower Protections Under the American Recovery and
       Reinvestment Act of 2009;”
      FAR 52.204-11, “American Recovery and Reinvestment Act – Reporting
       Requirements;”
      FAR 52.215-2, “Audit and Records – Negotiation;”
      FAR 52.225-21, “Required Use of American Iron, Steel, and Manufactured
       Goods−Buy American Act−Construction Materials;” and
      FAR 52.225-23, “Required Use of American Iron, Steel, and Other Manufactured
       Goods−Buy American Act−Construction Materials Under Trade Agreements
       (Aug 2009).”

Project Adequately Tracked and Reported
USACE Fort Worth District personnel complied with Recovery Act tracking and
reporting requirements for the MILCON project. OMB Memorandum M-10-08,

                                             7

“Updated Guidance on the American Recovery and Reinvestment Act – Data Quality,
Non-Reporting Recipients, and Reporting of Job Estimates,” December 18, 2009,
establishes quarterly reporting requirements for recipients of Recovery Act funding and
assigns responsibilities to Federal agencies to review the reports. Additionally, “FRAGO
# 25 to Operations Order 2009-11 (USACE Execution of the American Recovery &
Reinvestment Act 2009) (Recipient Reporting),” December 2009, requires that USACE
Headquarters officials identify contractors receiving Recovery Act funding that have not
complied with requirements for submitting quarterly contract information through
www.FederalReporting.gov. Required contract information includes amounts obligated,
amounts invoiced, number of people employed on the contract, and amount
subcontracted. We verified, through www.FederalReporting.gov, that the contractor for
the MILCON project met the quarterly recipient reporting requirements for recipients of
Recovery Act funding. We also verified that summary information for the recipient
contractor was available to the public on www.Recovery.gov. We did not verify whether
Fort Hood DPW personnel validated the reporting of the recipient contractor. We plan to
cover Army validation of recipient contractor reporting in a subsequent phase of our
Recovery Act audit efforts.

Cost and Schedule Status Not Yet Available
At the time of our review, USACE performed only preliminary construction work on the
MILCON project. Therefore, no cost or schedule data were available for our review.

Results of Reviewing the FSRM Project
Fort Hood DPW personnel appropriately planned, properly funded, and correctly began
initial execution of a Recovery Act-funded project for repairing Fort Hood building 422
to provide consolidated office space for the Directorate of Information Management. As
part of initial project execution, the Fort Hood Directorate of Contracting personnel
properly solicited and competitively awarded a fixed-price contract for the FSRM project.
The contract solicitations were transparently reported, and the contract contained the
clauses required by the FAR for contract actions funded through the Recovery Act.
Further, Fort Hood personnel and the contractor adequately tracked and reported on the
project.

Project Appropriately Planned
We reviewed the DD Form 1391 and supporting documentation for the FSRM project,
which was to repair infrastructure systems in Fort Hood building 422. Documentation
showed that the FSRM project, originally estimated to cost $8.1 million, was a more
economical alternative than replacing the building, which Fort Hood personnel estimated
would cost $28.3 million. The DD Form 1391 noted that the project was necessary to
consolidate the operations of the Directorate of Information Management. Further, the
DD Form 1391 stated that the building had a failing roof system and contained hazardous
materials including asbestos, mold, and lead-based paint. Additionally, we verified
through visual inspection that the building was in need of repair.



                                           8

Project Properly Funded
Funding documentation showed that officials at the Fort Hood Directorate of Contracting
properly transferred $8.1 million of Recovery Act funding for the project to the
Fort Hood DPW. The appropriate treasury account symbol was correctly included on the
purchase request reviewed for the project. The Army initially estimated the project
would cost $8.1 million in the May 15, 2009, “Department of Defense Facilities
Sustainment, Restoration, and Modernization Program Plan.” The Army later awarded
the project contract in March 2010 for $7.57 million, approximately $530,000 less than
the original estimate. As provided in the DOD Comptroller Memorandum (discussed in
the “Project Was Properly Funded” section for the MILCON project), the Army can use
the bid savings on this project to fund other Recovery Act projects at Fort Hood.

Project Correctly Executed
Fort Hood DPW personnel correctly performed initial project execution of the FSRM
project. Initial project execution included awarding a contract that was competitively
solicited with full transparency and that contained clauses required by the FAR for
Recovery Act contract actions.

Contract was Competitively and Transparently Solicited and Awarded
The Fort Hood Directorate of Contracting personnel issued solicitation W91151-10-B-
0006 on February 5, 2010, and awarded contract W91151-10-C-0073 on March 24, 2010,
for $7.57 million, after receiving 11 bids for the project. The solicitation indicated that
the acquisition was set-aside for 8(a) construction firms within Region VI (includes the
states of New Mexico, Oklahoma, Texas, Arkansas, and Louisiana), and the
presolicitation notice indicated that no large-business bids would be accepted.

To ensure the transparency of the transactions related to the FSRM project, Directorate of
Contracting personnel posted a presolicitation notice on the FBO Web site on January 28,
2010, that specified that the project was a Recovery Act action. Directorate of
Contracting personnel subsequently posted an award notification on the FBO Web site on
March 25, 2010, for informational purposes only.

Contract Included Required Federal Acquisition Regulation Clauses
Contract W91151-10-C-0073 for the FSRM project included the clauses required by the
FAR for actions funded through the Recovery Act. Specifically, the contract contained:

      FAR 52.203-15, “Whistleblower Protections Under the American Recovery and
       Reinvestment Act of 2009;”
      FAR 52.204-11, “American Recovery and Reinvestment Act − Recovery Act
       Reporting Requirements;”
      FAR 52.214-26, “Audit and Records – Sealed Bidding;”
      FAR 52.244-6, “Subcontracts for Commercial Items;”




                                             9

      FAR 52.225-21, “Required Use of American Iron, Steel, and Other Manufactured
       Goods − Buy American Act−Construction Materials;” and
      FAR 52.225-23, “Required Use of American Iron, Steel, and Other Manufactured
       Goods−Buy American Act−Construction Materials Under Trade Agreements
       (Aug 2009).”


Project Adequately Tracked and Reported
Fort Hood DPW Personnel complied with Recovery Act tracking and reporting
requirements for the FSRM project, which are provided in OMB Memorandum M-10-08
and “FRAGO # 25 to Operations Order 2009-11 (USACE Execution of the American
Recovery & Reinvestment Act 2009) (Recipient Reporting),” December 2009, and are
summarized in the “Project Was Adequately Tracked and Reported” section for the
MILCON project. We verified, through www.FederalReporting.gov, that the contractor
for the FSRM project met the quarterly recipient reporting requirements for recipients of
Recovery Act funding. We also verified that summary information for the recipient
contractor was available to the public on www.Recovery.gov. We did not verify whether
Fort Hood DPW personnel validated the reporting of the recipient contractor. We plan to
cover Army validation of recipient contractor reporting in a subsequent phase of audit
effort.

Cost and Schedule Status Not Yet Available
Contract W91151-10-C-0073 was awarded on March 24, 2010, and no cost or schedule
variances were available at the time of our review.




                                           10 

Appendix A. Scope and Methodology
We conducted this audit from October 2009 through November 2010 in accordance with
generally accepted government auditing standards. Generally accepted government
auditing standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our conclusions based on our audit
objectives. We believe that the evidence obtained provides a reasonable basis for our
conclusions based on our audit objectives.

Scope
We selected two Recovery Act projects at Fort Hood with a total estimated cost of
$20.8 million. These projects included a MILCON project for a CDC estimated to cost
$12.7 million and an FSRM project, involving repairing building 422, estimated to cost
$8.1 million. Our review included interviewing Army staff at the Fort Hood DPW and the
Directorate of Contracting, as well as at the USACE Fort Worth District. We also
performed a visual inspection to help determine whether Fort Hood building 422 was in
need of repair. Further, we reviewed requirements, contracting, and financial
documentation dated from August 2002 through May 2010.

Methodology
Our overall audit objective was to evaluate DOD’s implementation of plans for the
Recovery Act of 2009. To accomplish our objective, we audited the planning, funding,
project execution, and tracking and reporting of Recovery Act projects to ensure that
efforts of the Military Services and Defense agencies met the accountability and
transparency requirements in the Recovery Act and OMB’s implementing guidance.
Specifically, we determined whether:

      the selected projects were adequately planned to ensure the appropriate use of
       Recovery Act funds (Planning);
      funds were awarded and distributed in a prompt, fair, and reasonable manner
       (Funding); and
      contracts contained Recovery Act FAR clauses (Project Execution);

Before selecting DOD Recovery Act projects for audit, the Quantitative Methods and
Analysis Division of the DOD Office of Inspector General analyzed all DOD agency-
funded projects, locations, and contracting oversight organizations to assess the risk of
waste, fraud, and abuse associated with each. We selected most audit projects and
locations using a modified Delphi technique, which allowed us to quantify the risk based
on expert auditor judgment and other quantitatively developed risk indicators. We used
information collected from all projects to update and improve the risk assessment model.
We selected 83 projects with the highest risk rankings. Auditors chose some additional
projects at the selected locations. The two Fort Hood Recovery Act projects reviewed in
this report were among the 83 selected projects.




                                           11 

We did not use classical statistical sampling techniques that would permit generalizing
results to the total population because there were too many potential variables with
unknown parameters at the beginning of this analysis. The predictive analytic techniques
employed provided a basis for logical coverage not only of Recovery Act dollars being
expended, but also of types of projects and types of locations across the Military
Services, Defense agencies, State National Guard units, and public works projects
managed by USACE.

Use of Computer-Processed Data
We relied on computer-processed data from the FBO Web site
(http://www.fedbizopps.gov) to meet our audit objectives. Specifically, we relied on the
FBO Web site to determine whether the Army met the requirements for transparently
reporting Recovery Act-funded contract actions. We tested the accuracy of the
computer-processed data by obtaining copies of contract documentation. We also
interviewed program officials responsible for reporting on Recovery Act contract actions
and for managing Recovery Act funding. No problems with data integrity came to our
attention during the audit. From these procedures we concluded that the data we
reviewed was sufficiently reliable for our purposes.

Use of Technical Assistance
An engineer from the Technical Assessment Directorate, DOD Office of Inspector
General, assisted in the audit. The engineer supported the team in evaluating the
MILCON and FSRM projects selected for review.

Prior Audit Coverage
The Government Accountability Office, the Department of Defense Inspector General,
and the Military Departments have issued reports and memoranda discussing DOD
projects funded by the Recovery Act. You can access unrestricted reports at
http://www.recovery.gov/accountability.




                                           12 

Appendix B. Recovery Act Criteria and
Guidance
The following list includes the primary Recovery Act criteria and guidance (notes appear
at the end of the list):

   	 U.S. House of Representatives Conference Committee Report 111-16, “Making
      Supplemental Appropriations for Job Preservation and Creation, Infrastructure
      Investment, Energy Efficiency and Science, Assistance to the Unemployed, and
      State and Local Fiscal Stabilization, for the Fiscal Year Ending September 30,
      2009, and for Other Purposes,” February 12, 2009.

   	 Public Law 111-5, “American Recovery and Reinvestment Act of 2009,”
      February 17, 2009.

   	 OMB Memorandum M-09-10, “Initial Implementing Guidance for the American
      Recovery and Reinvestment Act of 2009,” February 18, 2009.

   	 OMB Bulletin No. 09-02, “Budget Execution of the American Recovery and
      Reinvestment Act of 2009 Appropriations,” February 25, 2009.

   	 White House Memorandum, “Government Contracting,” March 4, 2009.

   	 White House Memorandum, “Ensuring Responsible Spending of Recovery Act
      Funds,” March 20, 2009.

   	 OMB Memorandum M-09-15, “Updated Implementing Guidance for the
      American Recovery and Reinvestment Act of 2009,” April 3, 2009.1

   	 OMB Memorandum M-09-16, “Interim Guidance Regarding Communications
      With Registered Lobbyists About Recovery Act Funds,” April 7, 2009.

   	 OMB Memorandum M-09-19, “Guidance on Data Submission under the Federal
      Funding Accountability and Transparency Act (FFATA),” June 1, 2009.

   	 OMB Memorandum M-09-21, “Implementing Guidance for the Reports on Use
      of Funds Pursuant to the American Recovery and Reinvestment Act of 2009,”
      June 22, 2009.2

   	 OMB Memorandum M-09-24, “Updated Guidance Regarding Communications
      with Registered Lobbyists About Recovery Act Funds,” July 24, 2009.

   	 OMB Memorandum M-09-30, “Improving Recovery Act Recipient Reporting,”
      September 11, 2009.


                                           13 

    	 OMB Office of Federal Procurement Policy, “Interim Guidance on Reviewing
       Contractor Reports on the Use of Recovery Act Funds in Accordance with FAR
       Clause 52.204-11,” September 30, 2009.2

    	 OMB Memorandum M-10-08, “Updated Guidance on the American Recovery
       and Reinvestment Act – Data Quality, Non-Reporting Recipients, Reporting of
       Job Estimates,” December 18, 2009.2

    	 OMB Memorandum M-10-14, “Updated Guidance on the American Recovery
       and Reinvestment Act,” March 22, 2010.2

    	 White House Memorandum, “Combating Noncompliance With Recovery Act
       Reporting Requirements,” April 6, 2010.2

    	 OMB Memorandum M-10-17, “Holding Recipients Accountable for Reporting
       Compliance under the American Recovery and Reinvestment Act,” May 4, 2010.2

    	 OMB Memorandum M-10-34, “Updated Guidance on the American Recovery
       and Reinvestment Act,” September 24, 20102




End Notes
1
  Document provides Government-wide guidance for carrying out programs and activities enacted in the
American Recovery and Reinvestment Act of 2009. The guidance states that the President’s commitment
is to ensure that public funds are expended responsibly and in a transparent manner to further job creation,
economic recovery, and other purposes of the Recovery Act.
2
 Document provides Government-wide guidance for carrying out the reporting requirements included in
section 1512 of the Recovery Act. The reports will be submitted by recipients beginning in October 2009
and will contain detailed information on the projects and activities funded by the Recovery Act.


                                                     14 

